      CONTRACT RATIFICATIONS

                      EXECUTIVE SUMMARY
We reviewed contract ratifications to identify additional management controls needed
to prevent such ratifications (approved after the fact of unauthorized commitments).
We commend the Office of Administrative Services (OAS) and Division of
Enforcement for their considerable efforts to increase awareness regarding this issue
and discourage these improper actions.
To enhance these efforts, we are making several recommendations including (1)
strengthening existing guidance pertaining to unauthorized commitments and
contract ratifications, (2) examining contracting authority and procurement processes
in the regional offices, (3) adopting best practices from the Department of Justice
(DOJ), and (4) implementing management controls to increase management and
employee accountability for unauthorized commitments.
Commission management generally agreed with our findings and recommendations
and in many instances were already taking corrective actions. As a result, some of
our recommendations refer to work in progress, while others refer to tasks that still
need to be addressed. The Office of Financial Management’s formal written response
is included as Appendix 1.




                  .   OBJECTIVE AND SCOPE
Our objective was to determine if additional management controls could be
implemented to help reduce unauthorized commitments at the Commission. The
evaluation was initiated based on concerns expressed by the Commission’s Senior
Procurement Executive (Associate Executive Director for the Office of
Administrative Services) regarding a number of recent contract ratification requests.
During the inspection, we interviewed headquarter Commission staff and staff in
the Los Angeles, Chicago, and New York Regional Offices (the sampled regional
offices). We also interviewed procurement officials at the Department of Justice’s
Civil Division to identify best practices to prevent unauthorized commitments due to
the similarity of their operations to those of the Commission’s Division of
Enforcement.
We reviewed available ratification documentation maintained by the Procurement
and Contracting (P&C) Branch of OAS and the sampled regional offices. Our scope
was limited to contract ratifications recorded by P&C from March 2005 to February
2007, since earlier data had not been maintained. The evaluation was performed
                                                                                          2


from March to July 2007 in accordance with Quality Standards for Inspections,
January 2005 edition, issued by the President’s Council on Integrity and Efficiency
and the Executive Council on Integrity and Efficiency.


                              BACKGROUND
The Commission requires goods and services from outside vendors to support its
operations and help carry out its mission. This is accomplished either through
purchases by authorized purchase card holders, or through the issuance of a legally
binding contractual document by an authorized procurement official. The only
individuals with authority to enter into and to modify contracts with vendors on
behalf of the Commission are designated officials in P&C and the Regional Offices
(i.e. individuals who have been delegated express written authority in form of a
warrant issued by the Commission’s Senior Procurement Executive).
If a Commission employee without contracting authority enters into a contractual
agreement with a vendor on behalf of the Commission or instructs the vendor to
perform work outside the scope of the contract, an unauthorized commitment has
occurred. For example, unauthorized commitments occur when employees accept or
order goods prior to processing a requisition or obtaining necessary authorizations,
approve work beyond the scope or dollar value of an existing contract, or authorize a
contractor to perform work after the expiration date of the contract.
When work is performed as a result of an unauthorized commitment, the vendor
cannot be paid for the work until a legitimate contract is established through a
“ratification.” In a contract ratification action, the ratifying official reviews the facts
pertaining to the unauthorized commitment and determines whether to make the
action whole and legally binding after the fact. The Senior Procurement Executive
is the only individual authorized to approve ratification requests for the
Commission.
While an unauthorized commitment is not an appropriate method of obtaining goods
or services, Commission regulation SECR 10-2, Contracting Authority and
Responsibilities, provides procedures for ratification of unauthorized commitments.
These procedures require the office that made the unauthorized commitment to
submit information to P&C regarding the nature of the unauthorized commitment
(e.g. why it occurred, dollar amount, vendor involved, etc.). In turn, P&C reviews
the ratification request to ensure it contains all required information, works with
offices to obtain any missing or unclear information, coordinates with the applicable
contracting officer and Office of General Counsel to obtain required approvals, and
provides a package of information (containing all required elements of SECR 10-2) to
the Senior Procurement Executive for a ratification decision. Under current
procedures, the Senior Procurement Executive cannot take action on a ratification
request until P&C has completed the necessary support work. From March 2005 to
February 2007, the Senior Procurement Executive approved 26 contract ratification
requests. Historical data was unavailable for comparison purposes.




CONTRACT RATIFICATIONS (NO.430)                                        SEPTEMBER 25, 2007
                                                                                     3


Title 48 of the Code of Federal Regulations, Federal Acquisition Regulation (FAR),
Subpart 1.602-3, requires agencies to take positive actions to preclude, to the
maximum extent possible, the need for ratification actions.
The FAR also emphasizes that while ratification procedures are provided for use in
cases where ratification of an unauthorized commitment is necessary, the
procedures may not be used in a manner that encourages such commitments being
made by Government personnel.


                     INSPECTION RESULTS
We found that the Commission should implement additional management controls
to help preclude unauthorized commitments. Despite efforts by OAS, the Division of
Enforcement, and some program officials to prevent them, unauthorized
commitments still continue to occur. As a result, the Commission violated Federal
regulations and its own policies, incurred unwarranted expense, and potentially
damaged its reputation with vendors. The ratification process is time consuming,
requires considerable documentation and often harms the Government’s ability to
conduct future business with the contractors involved due to payment delays. On a
positive note, we found that all contract ratifications were for operational related
expenditures.
We are recommending that the Commission (1) strengthen existing guidance
pertaining to unauthorized commitments and contract ratifications, (2) examine
contracting authority and procurement processes in the regional offices, (3) adopt
best practices from DOJ to preclude contract ratifications, and (4) implement
management controls to increase management and employee accountability for
unauthorized commitments.


Ratification Activity
The Commission approved 26 contract ratifications totaling approximately $1.7
million from March 2005 to February 2007. A total of 12 potential contract
ratifications were pending as of March 2007.
However, the true number of contract ratifications during this same period may be
much higher due to the past treatment of unauthorized commitments. We
understand that instead of processing formal ratifications, some offices have used
alternative procedures that were not in conformance with the FAR. For example, an
office may have predated a contract’s effective date prior to its execution (signed
date), thus authorizing work that had already been performed without processing a
ratification.
Data compiled from P&C’s records (see table below), indicate that the Division of
Enforcement submitted the largest number of contract ratification requests between
March 2005 - March 2007. These requests related to contracts for expert witness,
foreign counsel, and reporting services. Regional offices accounted for the largest
number of pending contract ratifications as of March 2007.



CONTRACT RATIFICATIONS (NO.430)                                   SEPTEMBER 25, 2007
                                                                                                           4


                                    Contract Ratifications by Division/Office

       Division/Office     Approved Ratifications     Pending               Nature of Pending/Approved
                           from March 2005-March      Ratifications as of   Ratifications
                           2007                       March 2007

       Division of         10                         2                     Expert witnesses, foreign
       Enforcement                                                          counsel and reporting services
                                                                            costs. Expert witness and
                                                                            foreign counsel contracts
                                                                            accounted for 9 out of the 10
                                                                            approved ratifications
       Office of           5                          0                     Rental of a security booth,
       Administrative                                                       award framing, IT move
       Services                                                             related services, furniture
                                                                            storage, mold remediation
                                                                            work in a regional office.
       Office of           3                          0                     Internet service, pagers, IT
       Information                                                          maintenance
       Technology
       Regional Offices    5                          7                     Building services, expert
                                                                            witness services, electrical
                                                                            work, copying fees for a
                                                                            subpoena
       Office of General   2                          0                     Analysis of intellectual
       Counsel                                                              property issues, mediation
                                                                            services
       Equal               1                          0                     EEO investigation
       Employment
       Opportunity
       Office
       Office of Human     0                          3                     Unauthorized payment of a
       Resources                                                            daycare subsidy, arbitration
                                                                            cases, interagency agreement
       Totals              26                         12




A basic cause for many contract ratifications is a lack of procurement planning and
knowledge by program officials of the procurement process. Some specific situations
resulting in contract ratifications included:
   •      Program offices failed to anticipate future needs relating to existing contracts
          by extending the period or performance and/or increasing funding (e.g.,
          unauthorized individuals voluntarily accepted goods or services from
          contractors after the expiration date of a contract and/or expiration of
          funding).
   •      Program offices with pressing program requirements mistakenly did not
          believe that enough time was available to complete required procurement
          procedures (e.g., offices did not take the time to process requisitions and/or
          obtain proper authorizations prior to accepting goods or services).
   •      Program offices did not begin the procurement process for new requirements



CONTRACT RATIFICATIONS (NO.430)                                                  SEPTEMBER 25, 2007
                                                                                       5


       in sufficient time to allow P&C to award the procurement to be awarded by
       P&C prior to their need for a particular good or service (e.g., an unauthorized
       individual proceeded with ordering/accepting a service unknown to P&C
       while the contract is being processed).
Regardless of the cause, the FAR, Subpart 1.602-3, requires agencies to preclude to
the maximum extent possible, the need for ratification actions.


Policy and Procedures Regarding Unauthorized Commitments
and Ratifications
In April 1998, the Commission published SECR 10-2, Contracting Authority and
Responsibilities, which established policy and delegated authority and accountability
for the management of contracting functions. Attachment 1 to SECR 10-2 lists
information required to be included by program offices in contract ratification
requests. Program officials we interviewed believed that SECR 10-2 provided
helpful guidance for drafting a contract ratification request. However, we believe
the policy should be updated and operating procedures put in place to help ensure
adherence to the policy. Enhanced guidance will help (1) ensure Commission
employees understand what actions constitute an unauthorized commitment, (2)
inform employees on ways to avoid making unauthorized commitments, and (3)
provide the Senior Procurement Executive with complete information to make an
informed contract ratification decision. The guidance should:
   •   Cite examples of actions that would constitute unauthorized commitments
       and describe best practices to avoid contract ratifications. OAS and the
       Division of Enforcement have already provided this information informally
       (emails, memoranda, etc.) to Commission employees.
   •   Specifically prohibit actions by program officials that are designed to avoid
       processing formal contract ratifications such as predating contracts, and
       warn of potential disciplinary action if such actions occur.
   •   Address handling of emergency requirements as defined by the FAR, as well
       as situations involving a pressing need for a good or service to accomplish the
       Commission’s mission.
   •   Expand the Office of Financial Management’s (OFM’s) budget execution
       procedures to ensure that when the obligating document is sent to OFM for
       certification they are able to make a determination whether the unauthorized
       commitment resulted in a violation of Commission Regulation SECR 14-1,
       Commission’s Administrative Controls of Funds. This regulation contains
       procedures related to violation of the Antideficiency Act. It also states on
       page 4 that “violations not in violation of the Antideficiency Act are subject to
       administrative discipline if the circumstances warrant.” We believe that OFM
       is in the best position to interpret the regulation and determine if an
       unauthorized commitment has violated the provisions of SECR 14-1.
   •   Require that the Contracting Officer’s determination of price reasonableness
       be supported by appropriate information in accordance with FAR, Subpart
       15.4, Contract Pricing. The supporting documentation should accompany the


CONTRACT RATIFICATIONS (NO.430)                                     SEPTEMBER 25, 2007
                                                                                                                 6


         contract ratification. We found that many contract ratification requests did
         not clearly show that the Contracting Officer found the contractor’s price to
         be reasonable and did not provide a basis for price reasonableness.
    •    Incorporate applicable requirements of the September 13, 2005,
         Memorandum of Understanding between OAS and the Office of General
         Counsel 1 , regarding legal reviews of procurement actions (i.e. legal reviews of
         unauthorized contractual commitments over $10,000 and non-ratifiable
         commitments of any amount).
    •    Require that ratification requests be signed by the individual who made the
         unauthorized commitment and his or her supervisor, in addition to the office
         head. We found that often the individual who made the unauthorized
         commitment and his or her immediate supervisor were not identified in the
         contract ratification requests.
    •    Include an electronic form listing required information and approvals, as well
         as a checklist of required documents that should be included in the
         ratification package. While Attachment 1 of SECR 10-2 contains a list of
         required information, we found many ratification requests did not include all
         required information, resulting in processing delays. Also, P&C’s files did not
         always show that required approvals (i.e. by OGC and the contracting officer)
         for contract ratification requests had been obtained.

Recommendation A
OAS should update SECR 10-2 and establish procedures to incorporate the above
requirements, after consultation with affected program offices.

Recommendation B
OFM should establish procedures to review all ratification requests submitted by
OAS to determine if any violations of SECR 14-1 have occurred and notify
appropriate parties (i.e. applicable division/office, OGC and OAS) of the results of
the review.


Field Office Contract Authority
Senior-level officials in the Regional Offices (typically the Regional Director and
select Associate Regional Directors) have been delegated contracting authority in the
form of a warrant for services limited to expert witness, foreign counsel, depositions,
and transcript services up to $100,000. P&C administers and awards all other
contracts. Regional Offices also have authority to award and administer purchases
under the micro-purchase threshold (currently $3,000) through designated purchase
card holders.
The Regional Offices we visited primarily used one individual from their

1
 The Memorandum of Understanding established Commission policy for the conditions under which the Office of General
Counsel would perform legal reviews of procurement actions proposed by the P&C Branch and Construction and Real
Property Branch within the Office of Administrative Services.



CONTRACT RATIFICATIONS (NO.430)                                                          SEPTEMBER 25, 2007
                                                                                      7


Administrative Group (an SK-303-07, Program Support Assistant) to process
procurements (e.g. complete necessary paperwork, communicate with appropriate
parties to obtain funding and organizational budget approvals, and enter required
data into the Commission’s financial system of record). The senior-level officials
then reviewed and approved procurements for which they had contracting authority.
In April 2005, the Office of Federal Procurement Policy published Policy Letter 05-
01, Developing and Managing the Acquisition Workforce, which required the Federal
Acquisition Institute and Chief Acquisition Officer’s Council to approve a program
that standardized the education, training, and experience requirements for
contracting professionals in an effort to improve workforce competencies. In
January 2007, OAS modified the contracting authority in the regional offices and
determined the modified authority was so limited it fell outside the scope of the
Federal Acquisition Certification in Contracting Program (the Program). While
providing extensive training to applicable regional office staff in accordance with the
Program may not be cost-effective for the Commission, we are concerned that
regional office staff with contracting authority and administrative staff who prepare
procurement actions may not have the required skills to perform their procurement
responsibilities successfully.
The officials we interviewed with contracting authority and administrative staff who
prepare procurement actions had received little or no formal procurement or
contract training related to their procurement responsibilities, other than a recent
three-day Introduction to Federal Contracting course.
Also, current contracting authority does not appear to effectively meet the needs of
the regional offices. While regional offices are authorized to process procurements
up to $100,000 for expert witness, foreign counsel, transcript, and deposition
services, they do not have contracting authority to procure other goods and services
under the micro-purchase threshold when a credit card is not accepted by the
vendor. Many time-sensitive goods and services (such as subpoena services and
document copying) under the micro-purchase threshold ($3,000) cannot be procured
with a government credit card and/or the cost cannot be estimated upfront with
accuracy. As a result, regional offices are following temporary procedures developed
by P&C, in consultation with OFM, for these time-sensitive goods and services.
These procedures require a regional office to notify P&C via email upon completing a
requisition (with a “not to exceed” amount) for the good or service and obtaining
necessary budgetary and organizational approvals. P&C then reviews the
information from the regional office and emails it an authorization to proceed. The
regional office obtains the goods or services and creates a purchase order for the
exact dollar amount reflected on the vendor’s invoice. The purchase order is then
sent to P&C for signature.
This process can be time-consuming and inefficient. Also, we understand that some
regional office staff have paid personally for goods and services and subsequently
received reimbursement from the Commission by completing a Standard Form 1164,
Claim for Reimbursement.




CONTRACT RATIFICATIONS (NO.430)                                     SEPTEMBER 25, 2007
                                                                                        8


As shown in the table on page three, seven potential contract ratifications were
pending from regional offices as of March 2007. We believe that the insufficient
training and contract authority in the field offices may lead to unauthorized
commitments.

Recommendation C
OAS, in consultation with the regional offices, should reevaluate contracting
authority and procurement processes in the regional offices (i.e. determine whether
the appropriate individuals have contracting authority and whether that authority
should include micro-purchases where a government credit card cannot be used).

Recommendation D
OAS, in consultation with the regional offices, should (1) develop operating
procedures to guide procurement activities in the regional offices (i.e. procedures
should clearly define the roles and responsibilities of the regional offices in procuring
goods and services and incorporate applicable provisions of the FAR and
Commission policy), and (2) provide necessary on-the-job training (e.g. conference
calls, site-visits by OAS staff, etc.) and recommend formal procurement training to
staff with contracting authority as well as administrative staff who prepare
procurement actions in the regional offices.

Recommendation E
OFM, in consultation with OAS, should determine if other funding vehicles such as
debit cards could be effectively utilized to assist regional offices in meeting their
needs for time-sensitive goods and services below the micro-purchase threshold that
cannot be procured with the government purchase card.


Best Practices for Reducing Contract Ratifications
DOJ’s Civil Division has instituted procedures to reduce contract ratifications
related to expert witness contracts. DOJ awarded approximately 1,000 expert
witness type contracts within the last year and processed only one contract
ratification.
DOJ procurement officials stated that this was a significant improvement from prior
years. They attributed the improvement to (1) the adoption of a new contract
tracking system, (2) inclusion of a cover letter on all expert witness contracts
specifying key responsibilities of the vendor and DOJ, and (3) creation of detailed
policies containing guidelines for procurement of expert witness services. Since
DOJ’s operations are similar to those of the Division of Enforcement, the
Commission should consider adopting similar practices.
Tracking System- DOJ procurement officials worked with their information
technology group to develop a contract tracking system that generates monthly
reports showing key data for contracts expiring within 30 days and contracts that
have already expired. The reports are emailed monthly to the applicable office



CONTRACT RATIFICATIONS (NO.430)                                      SEPTEMBER 25, 2007
                                                                                         9


heads. These offices are required to take action to modify expiring contracts or to
cease further work under expired contracts.
Cover Letter- DOJ attaches a cover letter to each of its expert witness/foreign
counsel contracts. This cover letter requires the vendor to notify the contracting
officer when 75% of the funds have been expended under the contract, spells out
what the technical point of contact on the contract (trial attorney) is or is not
authorized to do, and specifies what information should be included on invoices to
ensure timely processing by DOJ.
Policies- DOJ developed detailed policies containing guidelines for procuring
expert witness services that are provided to its attorneys.
A Commission P&C official attended the meeting with the OIG at DOJ concerning
best practices for preventing contract ratifications. P&C has implemented a
contract tracking reporting feature within the Strategic Acquisition Manager (SAM)
system and has included language from DOJ’s cover letter in the Commission’s cover
letters for expert witness contracts. Also, the Administrative Group within the
Division of Enforcement has taken the lead to develop new expert witness guidelines
for the Commission using DOJ’s policies as the framework. These draft guidelines
have been provided to P&C for comment with regard to procurement policy.

Recommendation F
The Division of Enforcement should also share its draft expert witness guidelines
with OFM and the Regional Offices for comment and set a goal to finalize the expert
witness guidelines within 120 days.


Accountability Issues
Points of Contact/Inspection and Acceptance Officials/COTRs
We found that contracting officer’s technical representatives (COTRs) were not
appointed for the expert witness contracts we reviewed during the inspection.
Instead, a point of contact (normally the trial attorney) was referenced in the
contract and was responsible for the technical details within the scope of the
contract, reviewing bills and charges submitted by the vendor, and inspection and
acceptance of final delivery.
SECR 10-15, Contracting Officer’s Technical Representative (COTR) and Inspection
and Acceptance Official (IAO), requires COTRs and IAOs to take contracts-related
training prior to their appointments and refresher training periodically. Points of
contact (who perform many COTR functions) on expert witness contracts are
generally not taking any Commission sponsored contract-related training prior to or
after their appointments. Also, OAS does not currently provide appointment letters
to POCs and IAOs that clearly describe the responsibilities of these individuals.
This lack of training may be one cause of contract ratifications. The point of contact
may not fully understand the scope of their duties.




CONTRACT RATIFICATIONS (NO.430)                                    SEPTEMBER 25, 2007
                                                                                      10


Recommendation G
OAS, in consultation with the Division of Enforcement and regional offices, should
determine what training should be required for points of contact on expert witness
contracts. The training should be done in conjunction with the issuance of the
expert witness guidelines developed from Recommendation F.

Recommendation H
OAS should consider requiring appointment letters for IAOs and POCs that clearly
describe the responsibilities of these individuals (what they are and are not
authorized to do). The employee and their supervisor should be required to
countersign the appointment letter to certify they have read, understand, and accept
the duties, responsibilities and limitations of the appointment.
Disciplinary Action
We found that OAS and some officials in the Division of Enforcement and regional
offices have taken numerous informal steps (through email, memoranda, and
newsletters) to advise employees that unauthorized commitments are serious
matters that could result in discipline. Nevertheless, unauthorized commitments
still continue to occur. Generally, employees making unauthorized commitments
were counseled (verbally reprimanded by their supervisor) no matter how severe or
frequent the violation and the counseling was not documented.

Recommendation I
OAS should add language to its ratification guidance to remind Commission
management that they are responsible for taking appropriate disciplinary action
against employees who make unauthorized commitments (particularly if the action
was done knowingly or contrary to Commission policies and procedures) and that
they should do so in consultation with OHR, as appropriate.
Contract Ratification Reporting
We found that P&C does not routinely report contract ratification data to the
Executive Director. Summary data are needed by senior management to (1) monitor
contract ratification activity to identify patterns of abuse (by office, individual,
vendor, etc.); (2) determine if newly implemented management controls are working
and to modify, delete, or add new management controls as necessary; and (3) ensure
appropriate personnel action is taken against Commission officials that have been
found to routinely perpetuate unauthorized commitments and/or commit egregious
actions.
The summary data would be broken down by office/division and show the number,
amount, and dates of approved and pending ratifications as well as the parties
involved (both Commission employees as well as contractors).
Appropriate office heads should receive the data for their offices, so that they will be
aware of any significant issues and can take necessary action on problems within
their offices.




CONTRACT RATIFICATIONS (NO.430)                                      SEPTEMBER 25, 2007
                                                                                      11


Recommendation J
OAS should implement procedures to compile contract ratification data semi-
annually, and provide the data to the Senior Procurement Executive, Executive
Director, and appropriate office heads for their information and corrective action.




CONTRACT RATIFICATIONS (NO.430)                                    SEPTEMBER 25, 2007
